Review of the Medicaid Drug Rebate Program in New Jersey,"(A-02-03-01024)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Medicaid Drug Rebate Program in New Jersey," (A-02-03-01024)
October 14, 2004
Complete
Text of Report is available in PDF format (504 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to (1) evaluate the New Jersey State Medicaid Agencys accountability to the Centers
for Medicare and Medicaid Services (CMS) for reporting outstanding rebate balances and (2) evaluate its processes and controls
for drug rebate billings, collections, and dispute resolutions.  The State Agency produced timely rebate billings
and collections but there were opportunities to improve the reporting of program results and accountability to CMS and
to strengthen the processes for late and disputed rebates.  We recommended that the State Agency revise its procedures
for reporting outstanding rebates, reduce its drawdown of Federal funds to consider the drug rebates it has collected,
implement procedures to offer hearings  when disputes are not resolved, estimate and accrue interest on overdue rebate
balances, report $1,134,372 ($567,186 Federal share) of interest collected on late rebate payments to CMS and update its
procedures to prevent such problems in the future.